      U.S. Department of Labor
      Office of Inspector General
            Office of Audit




  Financial and Performance Audit of
           City of Gary
  Welfare-to-Work Competitive Grant
             For the Period
January 4, 1999 through March 31, 2001




                         Audit Report No. 05-02-001-03-386
                         Date Issued: March 18, 2002
City of Gary Welfare-to-Work Competitive Grant




                                        Table of Contents

                                                                                    Page

Acronyms                                                                              ii

Executive Summary                                                                    iii

Background                                                                           1

Objectives, Scope and Methodology                                                    3

Findings and Recommendations                                                         5

        1.   Excessive, Unsupported, and Unallowable Service Provider Claims    5
        2.   Other Unallowable Claims                                               19
        3.   Inadequate Participant Eligibility and Documentation              22
        4.   Noncompliance With Grant Requirements                             25

Appendix A - Grantee Response                                                       29




DOL-OIG Report No. 05-02-001-03-386                                             i
City of Gary Welfare-to-Work Competitive Grant




                                             Acronyms


AFDC            Aid to Families with Dependent Children
CFR             Code of Federal Regulations
CGFP            City of Gary Futures Program
DOL             Department of Labor
ETA             Employment and Training Administration
FSSA            Indiana Family and Social Services Administration
GPTC            Gary Public Transportation Corporation
MCA             Medical Career Assessment
MIS             Management Information System
NGI             New Generations, Inc.
OJT             On-the-Job Training
OMB             Office of Management and Budget
QFSR            Quarterly Financial Status Report
TANF            Temporary Assistance for Needy Families
WtW             Welfare-to-Work
YFCR            Youth Family Community Renewal




DOL-OIG Report No. 05-02-001-03-386                                 ii
City of Gary Welfare-to-Work Competitive Grant




                                      Executive Summary


The Office of Inspector General conducted a financial and performance audit of the Welfare-to-
Work (WtW) Competitive Grant awarded to the City of Gary. Our audit objectives were to
determine the allowability of selected claimed costs, the eligibility of selected participants, and
whether the grantee is in compliance with the major requirements of the grant.

The City of Gary reported expenditures of $1,254,637 in support of 235 participants for the
period January 4, 1999 through March 31, 2001. We tested a judgmental sample of staff salaries
and fringe benefits, as well as administrative, program, and service provider costs, totaling
$360,299. We also tested 60 participants= program eligibility and reviewed the grantee’s
compliance with the grant requirements and principal criteria. However, our selective testing was
not designed to express an opinion on the City of Gary’s Quarterly Financial Status Report
(QFSR).

We found:

    •   excessive, unsupported and unallowable service provider claims resulting in questioned
        costs of $130,205;
    •   other unallowable costs totaling $3,749;
    •   seven ineligible participants resulting in questioned costs of $2,808, and two misclassified
        participants; and
    •   noncompliance with grant requirements in two instances.

We recommend that the Assistant Secretary for Employment and Training:

    •   recover questioned costs of $133,013;
    •   direct the City of Gary to improve the contract administration system for procuring WtW
        participant services;
    •   verify that the City of Gary has reduced future QFSR expenditures by $3,749 resulting
        from unallowable costs;
    •   direct the City of Gary and/or the City of Gary Futures Program (CGFP) to:
        § ensure that future fringe benefits claims are billed at the proper rate;
        § transfer $6,852 from the 70 percent category to the 30 percent category expenditure
            accounts for the misclassified participants;



DOL-OIG Report No. 05-02-001-03-386                                                        iii
City of Gary Welfare-to-Work Competitive Grant




        §   correct the QFSR and the management information system (MIS) to reflect seven
            ineligible participants and the proper classification for two misclassified participants;
            and
        §   comply with the grant requirements by maintaining a MIS to track participants,
            correcting the QFSR and MIS to reflect the proper classification of all undesignated
            participants, completing a system to track expenditures by category, and negotiating
            profit as a separate element of cost during the procurement of WtW service providers.

City of Gary officials generally concurred with our recommendations but took exception to our
recommendation to improve the contract administration system for procuring WtW participant
services. The response has been incorporated in the report with our comments and is also
included in its entirety as Appendix A.




DOL-OIG Report No. 05-02-001-03-386                                                       iv
City of Gary Welfare-to-Work Competitive Grant




                                           Background


                         The Personal Responsibility and Work Opportunity Reconciliation Act of
  Objective of
                         1996 established the Temporary Assistance for Needy Families (TANF)
 Welfare-to-Work
                         program. The TANF provisions substantially changed the nation=s welfare
                         system from one in which cash assistance was provided on an entitlement
basis to a system in which the primary focus is on moving welfare recipients to work and promoting
family responsibility, accountability and self-sufficiency. This is known as the Awork first@
objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs and
become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF provisions and
provided for WtW grants to states and local communities for transitional employment assistance,
which moves hard-to-employ TANF welfare recipients into unsubsidized jobs and economic self-
sufficiency.

The Welfare-to-Work and Child Support Amendments of 1999 allow grantees to more effectively
serve both long-term welfare recipients and noncustodial parents of low-income children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999,
$711.5 million was designated for award through competitive grants to local communities.

  City of Gary=s        On January 4, 1999, the City of Gary received a 30-month WtW
 Competitive Grant      competitive grant in the amount of $5,000,000. The period of
                        performance was January 4, 1999 through June 30, 2001. The first grant
                        modification, effective October 12, 2000, realigned grant budget line items
and increased the consultant fee to $450 a day. Effective June 15, 2001, the second grant
modification extended the grant period through June 30, 2003; and incorporated a revised
statement of work, revised grant budget, and minor changes to the Grant Agreement, Part IV-
Special Conditions. No additional funding was included in either grant modification.

The grant application=s service strategy incorporates numerous job readiness and support services
in order to provide a continuum of care to ensure that a minimum of 400 TANF eligible recipients
                         make a smooth and effective transition to employment and long-term
                         retention.
   Principal Criteria


DOL-OIG Report No. 05-02-001-03-386                                                     1
City of Gary Welfare-to-Work Competitive Grant




In addition to the provisions of the Balanced Budget Act of 1997, the U.S. Department of Labor
(DOL) issued regulations found in
20 CFR 645. Interim Regulations were issued November 18, 1997. Final Regulations were
issued on January 11, 2001, and became effective April 13, 2001. Also, on April 13, 2001, a
new Interim Final Rule became effective, implementing the Welfare-to-Work and Child Support
Amendments of 1999. This resulted in changes in the participant eligibility requirements for
competitive grants, effective January 1, 2000.

As a municipality, the City of Gary is required to follow general administrative requirements
contained in Office of Management and Budget (OMB) Circular A-102, which is codified in DOL
regulations at 29 CFR 97, and OMB Circular A-87 requirements for determining the allowability
of costs.

                       In September 1999, we issued a report (Number 05-99-020-03-386) on
 Postaward Survey      the results of a postaward survey of 12 second-round competitive
                       grantees. The City of Gary was included in that review. During this audit,
we followed up on our concerns identified in the postaward survey. In general, based on our audit
work, these concerns were adequately addressed, except as noted in Finding Numbers 3 and 4.

                                                 BBBBB

This report is intended solely for the information and use of the management of the
U.S. Department of Labor, the Employment and Training Administration (ETA) and the City of
Gary, and is not intended to be and should not be used by anyone other than these specified
parties.




DOL-OIG Report No. 05-02-001-03-386                                                    2
City of Gary Welfare-to-Work Competitive Grant




                           Objectives, Scope and Methodology


                         The objectives of this financial and performance audit were to determine
     Objectives
                         the allowability of selected claimed costs, the eligibility of selected
                         participants, and whether the grantee is in compliance with the major
                         requirements of the WtW grant.

  Audit Scope and        Our audit included financial and program activities that occurred from
   Methodology           January 4, 1999 through March 31, 2001. Our review of management
                         controls was limited to financial management at the grantee level. We did
                         not audit performance measurements at CGFP.

As part of our audit planning, we conducted a vulnerability assessment of the financial management,
participant eligibility, cost allocation and procurement processes to determine if we could limit the
audit procedures in any of these areas. As a result of the vulnerability assessment, we designed our
sampling methodology. Our testing used judgmental sampling. We are not intending that our
testing is a representative sample, nor are we projecting to the entire universe of financial
transactions or participants. In addition, our selective testing was not designed to express an
opinion on the City of Gary’s QFSR.

Of the $1,254,637 claimed costs reported on the QFSR as of March 31, 2001, we selected
96 transactions for audit totaling $360,299. These transactions included staff salaries and fringe
benefits, administrative expenditures, program costs, and service provider costs.

Of the 235 participants reported on the QFSR as of March 31, 2001, we reviewed the CGFP=s
MIS and determined the adjusted universe of WtW participants served was 201. We then
selected 60 of the 201 participants to test eligibility as of when each participant enrolled in the
WtW program, because the MIS did not capture each participant’s eligibility determination date.
While reviewing each selected participant=s case file, we categorized each within two groups of
participants B those enrolled before January 1, 2000, and those enrolled from January 1, 2000
through March 31, 2001. This was necessary because of a change in participant eligibility
requirements, effective January 1, 2000. We determined that 19 participants enrolled before
January 1, 2000, and 41 participants enrolled from January 1, 2000 through March 31, 2001.

As part of our eligibility determination, we reviewed information provided by the Indiana Family



DOL-OIG Report No. 05-02-001-03-386                                                       3
City of Gary Welfare-to-Work Competitive Grant




and Social Services Administration (FSSA) to determine whether certain participants met TANF
and/or Aid to Families with Dependent Children (AFDC) cash assistance requirements as of each
participant’s WtW eligibility determination date.

During our audit, we reviewed compliance with the grant requirements and principal criteria cited
on page 2.

We interviewed City of Gary, CGFP, and service provider officials. We also obtained and
reviewed grantee policies and procedures, participant files, accounting records, and source
documentation, such as contracts, service provider agreements, invoices and payrolls to support
claimed costs.

We conducted our audit in accordance with Government Auditing Standards for performance
audits, issued by the Comptroller General of the United States. We conducted fieldwork from
May 16, 2001 to August 31, 2001, at the offices of the CGFP, the City of Gary Finance
Department, and three CGFP service providers.




DOL-OIG Report No. 05-02-001-03-386                                                     4
City of Gary Welfare-to-Work Competitive Grant




                              Findings and Recommendations


           1. Excessive, Unsupported, and Unallowable Service Provider Claims

Of the $1,254,637 claimed costs reported on the QFSR as of March 31, 2001, we selected
96 transactions for audit totaling $360,299. The results of the audit are presented here and in
Finding No. 2.

The CGFP contracted with several organizations for the delivery of WTW participant services
such as counseling, transportation, on-the-job training (OJT), and life skills. We identified: (A)
                                   multiple or excessive claims for participant services; (B)
   Excessive, unsupported, or      unsupported claims for participant transportation, medical career
  unallowable claims resulted in assessments (MCAs), and supplies; (C) unsupported claims for
       questioned costs of         OJT instruction;
           $130,205                (D) unallowable placement costs; and (E) provider services not
                                   included within service provider agreements. These claims did
not comply with OMB Circular A-122, 20 CFR
Part 645, 29 CFR Parts 95 and 97, and service provider agreements. Consequently, we
questioned a total of $130,205 as detailed in Parts A through E below. We attribute the cause of
these questioned costs to the City of Gary’s inadequate contract administration system for
procuring WtW participant services, as detailed in Part F below.

A.      Multiple or Excessive Claims for Participant Services

The CGFP service providers claimed multiple billings for the same participant services, WtW
services for unidentified participants, and excessive billings for childcare services, supplies, and
placement fees. As a result, we questioned $50,958. See Table on the next page.




DOL-OIG Report No. 05-02-001-03-386                                                          5
City of Gary Welfare-to-Work Competitive Grant




            Service         Multiple      Unidentified
             Billed         Claims        Participants     Total     Rate       Questioned

        Life Skills                69                  1      70    $170.00 $         11,900

        Job Coaching               69                  1      70    $218.50           15,295

        Job Readiness             122                  4     126    $170.00           21,420

        Total for Multiple Claims and Unidentified Participants                       48,615

        Total for Excessive Billings                                                   2,343

                                                                   TOTAL        $     50,958


        Multiple Claims

        We reviewed all New Generations, Inc. (NGI) claims processed by the CGFP from
        September 1999 through June 2000. Per the service provider agreement, NGI claimed
        WtW participant services at the following rates:

            o Life Skills   B $170.00 per participant
            o Job Coaching B $218.50 per participant
            o Job Readiness B $170.00 per participant

        We determined that Life Skills and Job Coaching were each billed a cumulative total of 69
        extra instances for 22 WtW participants. Further, we determined that Job Readiness was
        billed a cumulative total of 122 extra instances for 35 participants. For example, we found
        NGI billed one participant=s Job Readiness on eight occasions between September 1999
        and April 2000, and Life Skills and Job Coaching on seven occasions between September
        1999 and February 2000.

        City of Gary officials stated that, by oversight, the NGI service provider agreement only
        contained the monthly versus total cost for participant services. The officials provided total
        costs for each service as follows:

            o Life Skills        $1,020 ($170.00/month for six months)



DOL-OIG Report No. 05-02-001-03-386                                                        6
City of Gary Welfare-to-Work Competitive Grant




            o Job Readiness $1,020 ($170.00/month for six months)
            o Job Coaching $1,311 ($218.50/month for six months)
        The officials also stated the agreement has been corrected which reduces the questioned
        costs from $48,615 to $340 for two participants billed for seven job readiness sessions.
        The officials indicate the questioned $340 will be deducted from the next NGI invoice and
        adjustments will be made to the next QFSR.

        We do not accept the City=s corrective action in which they modified the NGI agreement in
        order to reduce questioned costs. This modification resulted in a
        600 percent increase in service rates well after the agreement was executed and services
        were performed. We consider these rate increases unreasonable and excessive. To
        illustrate, the modified rate of NGI=s Job Readiness services is almost 12 times the cost
        ($87 per participant) of similar services in the Workforce Development Services
        agreement and over 3 times the cost ($325 per participant) of similar services in the
        Tradewinds Rehabilitation Center agreement. The Life Skills and Job Coaching services
        are still not defined. We believe the modified rates for these services are unreasonable and
        excessive, even in the absence of comparable services.

        Services for Unidentified Participants

        The CGFP paid NGI for services provided to unidentified participants as follows:

            o Life Skills and Job Coaching services for one unidentified participant each,
              included on the December 23, 1999 claim;
            o Job Readiness services for two participants not included on the MIS; and
            o Job Readiness services for two unidentified participants included on the March 17,
              2000 claim.

        City of Gary officials provided no response regarding services provided for unidentified
        participants. We questioned $48,615 as a result of multiple claims and unidentified
        participant claims billed by NGI.

        Excessive Claims

        We questioned a total of $2,343 as a result of excessive claims from three service
        providers.



DOL-OIG Report No. 05-02-001-03-386                                                      7
City of Gary Welfare-to-Work Competitive Grant




        The CGFP paid Youth Family Community Renewal (YFCR) for excessive child care
        expenses. For the period September 1999 through January 2000, YFCR billed CGFP
        $12 a day for a WtW participant=s child care services. YFCR claimed duplicate days at
        the end of one month and the beginning of the next month in addition to holidays when child
        care services were not provided. We questioned $144 (12 days at $12 a day).

        The CGFP also paid the Gary Public Transportation Corporation (GPTC) for excessive
        supplies in support of WtW participants= OJT. GPTC billed the CGFP $895 for 20
        participants= supplies. The Service Provider Agreement allowed for GPTC to serve three
        WtW participants. Consequently, we questioned a prorated portion (17/20 or 85 percent
        of the invoice) of these supplies, or $761.

        The CGFP also paid Staff Source $2,500 for two participants= initial placement fees. Per
        the service provider agreement, Staff Source may claim $1,062 for each WtW
        participant=s placement. Because half the placement rate must be withheld pending the
        participant=s 6 months retention in unsubsidized employment, Staff Source was entitled to
        $1,062 in support of the placements. Therefore, we questioned $1,438 ($2,500 -
        $1,062) of excessive placement fees.

        City of Gary officials provided no response regarding excessive claims.

In summary, we questioned $48,615 for multiple claims and services provided to unidentified
participants by NGI, and $2,343 for excessive claims from YFCR, GPTC, and Staff Source, for a
total of $50,958.

B.      Unsupported Claims for Participant Transportation, Medical Career Assessments
        (MCAs), and Supplies

The CGFP service providers claimed $72,268 of unsupported WtW participant services including
transportation, medical career assessments (MCA), and supplies.

        Transportation




DOL-OIG Report No. 05-02-001-03-386                                                     8
City of Gary Welfare-to-Work Competitive Grant




        The CGFP paid GPTC $38,344 for unsupported WtW participant transportation services.
         Payments were in support of claimed WtW participant transportation ($19,362) as well as
        for administrative oversight ($18,982).

        GPTC claimed $19,362 for WtW participant transportation in three installments as follows:
            o Claim processed on October 15, 1999 -- $1,320 (66 round trips at $20 each);
            o Claim processed on February 25, 2000 -- $9,021 (10 participants at $902.07
               each); and
            o Claim processed on June 1, 2000 -- $9,021 (10 participants at $902.07 each).
        No documentation accompanied the first and third transportation claims. Limited
        documentation accompanied the second claim. However, we were unable to reconcile the
        provided documentation to the second claim=s information.

        Per the CGFP-GPTC transportation service provider agreement provided by CGFP,
        GPTC may claim the following participant rate: $30.66 per round trip.

        Per the CGFP-GPTC transportation service provider agreement provided by GPTC, they
        may claim the following participant rate: $1,124.44 per month .

        GPTC did not bill their services in accordance with either of these rates. Furthermore,
        source documentation for specific WtW participants= transportation was not consistently
        included with claims and was not subsequently provided by GPTC. GPTC provided
        subsequent documentation that indicates the rate billed in the second and third claim above
        was derived from their proposed project budget. Because services were not billed in
        accordance with the agreement and we cannot determine which WtW participants were
        provided transportation services, we questioned $19,362.

        In addition to the transportation services, GPTC also claimed $18,982 of administrative
        oversight costs as follows:

            o Claim processed on February 25, 2000 -- $3,796 (12 months X $2,531 a
              month); and
            o Claim processed on July 14, 2000 -- $15,186 (6 months X $2,531 a month)




DOL-OIG Report No. 05-02-001-03-386                                                      9
City of Gary Welfare-to-Work Competitive Grant




        GPTC provided documentation which indicates administrative costs were built into the rate
        of both service provider agreements provided by CGFP and GPTC, in addition to the
        $902.07 per participant claimed rate.

        We cannot ascertain the reasonableness of the administrative claims because these claims
        were not properly documented and billed. Furthermore, the service provider agreement
        did not document who, on GPTC=s staff, would be responsible for administrative oversight
        of WtW participant transportation.

        City of Gary officials provided copies of transportation claims processed on February 25,
        2000 ($9,021), and June 1, 2000 ($9,021), and the supporting documentation to verify
        that the City of Gary was not billed twice for the same period. We do not consider the
        June 1, 2000 claim to be a duplicate of the
        February 25, 2000 claim. Rather, it appears that GPTC billed administrative costs
        separately for these two transportation claims that already included administrative costs.
        City officials provided us:

            o the same documentation during fieldwork to support the claim processed on
              February 25, 2000; and
            o limited documentation to support the other claim.

        However, we were unable to reconcile the provided documentation to either claim=s
        information or to the agreement. Consequently, we questioned $38,344 ($19,362 +
        $18,982) for unsupported and potentially double-billed transportation and related
        administrative costs.

        Medical Career Assessments

        The CGFP paid NGI for 61 participants= MCAs as part of claims processed between
        September 1999 through June 2000, and on November 22, 2000, and
        March 29, 2001. In accordance with the service provider agreement, NGI claimed $545
        for each MCA. While not defined in the agreement, we were informed the MCA is used
        for participant placement in medical OJT. Also, the MCA includes the participant=s
        completion of a pre-test, consisting of 20 multiple choice and 8 open-ended questions, as
        well as an NGI physician=s evaluation of each participant=s suitability for an appropriate
        occupation within the medical field. We questioned $33,245 (61 MCAs X $545) because



DOL-OIG Report No. 05-02-001-03-386                                                     10
City of Gary Welfare-to-Work Competitive Grant




        the physician did not document the evaluation of each participant, nor the recommended
        occupation. We were provided evidence of ungraded participant pre-tests.

        City of Gary officials provided copies of 61 MCAs, consisting of the physician=s
        evaluations and graded participant pre-tests. We determined City of Gary officials
        provided documentation for only 60 participants= MCAs, excluding a participant
        determined to be ineligible in Finding Number 3A. It appears that this documentation was
        prepared in response to our draft report, well after the date services were actually
        performed and billed. During fieldwork, all participant pre-tests were found to be
        ungraded and an NGI official informed us that the physician=s evaluation of each participant
        was not documented. We were also informed, at that time, that the NGI physician=s
        evaluation was used to determine each participant=s suitability for an appropriate
        occupation within the medical field. However, the physician=s evaluations provided do not
        indicate suitability for a specific medical field. Rather, they indicate whether the participant
        was ready for OJT, not ready for OJT, or not a good candidate for NGI or the medical
        career field. We believe that an evaluation after the participant has already been placed in
        an OJT occupation is meaningless.

        Because MCAs are not defined in the CGFP-NGI service provider agreement (see
        Finding 1F), we are responsible for determining the reasonableness of the documentation
        provided in support of the billed service. We consider the costs unreasonable because we
        were not provided with documentation showing how each participant was assessed for
        placement into specific OJT occupations within the medical career field. As a result, we
        questioned costs of $33,245 (61 MCAs X $545).

        Supplies

        The CGFP also paid NGI $679 for six participants= supplies as part of a claim processed
        by CGFP on September 10, 1999. The service provider agreement required the original
        itemized invoice to be submitted for reimbursement of supplies. However, an invoice
        supporting the supplies did not accompany the claim.

        29 CFR 95.21(b), Standards for financial management systems, states:

                Recipients= financial management systems shall provide for the
                following: . . .



DOL-OIG Report No. 05-02-001-03-386                                                         11
City of Gary Welfare-to-Work Competitive Grant




                (7)      Accounting records including cost accounting records that
                         are supported by source documentation.

        City of Gary officials provided no response regarding unsupported claims for supplies.
        Consequently, we questioned $679.

In summary, we questioned $72,268 of unsupported WtW participant services including
transportation ($38,344), MCAs ($33,245), and supplies ($679).

C.      Unsupported Claims for OJT Instruction

Per the CGFP-GPTC service provider agreement, GPTC could claim WtW OJT services at the
rate of $10,885.35 per participant. This OJT rate was established in accordance with GPTC=s
planned budget for serving 20 WtW participants. GPTC claimed OJT services per the following
categories:

     o participant wages (billed as OJT),
     o participant supplies, and
     o OJT instruction.

Sufficient evidence was provided to support participant wages. Evidence was also provided to
partially support participant supplies (see Finding 1A, Excessive Claims). However, sufficient
evidence was not provided to support OJT instruction claims.

The CGFP paid GPTC $4,260 for OJT instruction billed in two installments. The first installment
claimed $3,654 ($1,218 for each of three OJT participants), which was processed on October 15,
1999. The second GPTC installment claimed $606 ($202 for each of three OJT participants) and
was processed on June 1, 2000. The agreement also required original time sheets to be submitted
to substantiate reimbursement. The agreement did not specify which GPTC employee(s) would
provide the OJT instruction. Time sheets were subsequently provided for the GPTC Director of
Operations. However, time sheets were not broken down by time worked in support of
administering the OJT instruction, administering the WtW transportation service provider
agreement, and other duties as Director of Operations. Payroll records, but not time sheets, were
also subsequently provided for a GPTC union instructor.




DOL-OIG Report No. 05-02-001-03-386                                                     12
City of Gary Welfare-to-Work Competitive Grant




OMB Circular A-122, Attachment B, Item 7m requires that personnel activity reports (time
sheets) be maintained to support payroll charges in support of the grant activity or multiple
activities.

29 CFR 95.21(b) states:

        Standards for financial management systems, states:
        Recipients= financial management systems shall provide for the following: . . .
        (7)    Accounting records including cost accounting records that are
               supported by source documentation.

We cannot ascertain the reasonableness of OJT instruction claims because of a lack of
documentation. City of Gary officials stated that they are continuing to gather this information but
provided no documentation to substantiate the questioned costs. Accordingly, we questioned the
$4,260 of claimed OJT instruction.

D.      Unallowable Placement Costs

The CGFP paid NGI for eight participants= job placements as part of claims processed from
January 28 through May 19, 2000. Per the CGFP-NGI service provider agreement, NGI claimed
a placement rate of $536 per participant. The agreement also required that
50 percent of the placement fee be withheld until the participant had been retained on the job for
six months. However, NGI billed CGFP for all eight placements in full at initial placement.
Furthermore, the only evidence of the placement was a NGI statement that the participant had
been placed. We consider this practice to be inadequate as the CGFP should ensure that the NGI
obtains documentation from the placement employer of record.

20 CFR 645.230(a)(3) states:

        . . . contracts or vouchers for job placement services . . . must . . . require that
        at least one-half (2) of the payment occur after an eligible individual placed
        into the workforce has been in the workforce for six (6) months. This provision applies
        only to placement in unsubsidized jobs. . . .

29 CFR 95.21(b) states:




DOL-OIG Report No. 05-02-001-03-386                                                        13
City of Gary Welfare-to-Work Competitive Grant




        Standards for financial management systems, states:
        Recipients= financial management systems shall provide for the following:. . .
        (7)    Accounting records including cost accounting records that are
               supported by source documentation.

City of Gary officials provided copies of source documentation to substantiate the initial placement
fees (50 percent) for seven of these eight placements. Officials also provided documentation to
support the retention fee for six months in unsubsidized employment (50 percent) for five of these
eight placements.

We questioned $1,072 for a lack of source documentation to support one claimed placement
($536), as well as not withholding 50 percent of the placement fee for two other WtW placements
($268 X 2) until they had been retained in unsubsidized employment for
6 months.

E.      Services Not Included in Provider Agreements

The CGFP paid two service providers a total of $1,647 for services not included in their service
provider agreements.

The CGFP paid Howard Van $897 for participant no-shows and driver waiting periods as part of
a claim processed by the CGFP on February 15, 2001. We found 26 instances where Howard
Van billed the CGFP for participant Ano shows/no gos@ and waiting periods ranging from $5 to
$150. The service provider agreement did not include payment arrangements for participant Ano-
shows/no-gos@ and driver waiting periods.

The CGFP paid Staff Source $750 in total for five participants= Life Skills training which was not
included in the service provider agreement. Furthermore, one of these participants was not
included on the CGFP participant MIS.

Consequently, we questioned $1,647 ($897 + $750) resulting from service providers billing for
services not approved and stipulated in the service provider agreements.

City of Gary officials provided no response regarding services not included in provider agreements.

F.      Inadequate Contract Administration System



DOL-OIG Report No. 05-02-001-03-386                                                       14
City of Gary Welfare-to-Work Competitive Grant




While auditing invoices for costs claimed by service providers, we identified what we believe are
the causes of the conditions reported in items A through E. We noted that there is no evident
segregation of duties in the procurement of WtW service providers, and that the service provider
agreements are inadequate.

        No Segregation of Duties

        No segregation of duties is evident in the procurement of WtW service providers, and
        potentially other Federally funded program service providers.

        The City of Gary procurement policies and procedures, as of August 2001, require formal
        bids for purchases of an apparatus, supplies, materials, and/or equipment totaling $75,000
        or more and processing through the Purchasing Agency. However, the policies and
        procedures are silent concerning the procurement of program services, such as WtW.

        The CGFP staff members evaluate proposals. Further, the CGFP office maintains the
        selection and award documentation. While the awarded service provider agreements must
        also receive the formal approval of two of three City Board of Public Works and Safety=s
        members (the Deputy Mayor, the City Controller, and the City Counsel), the
        documentation of award selection is not always reviewed by this Board or any other
        official.

        Furthermore, we were informed that original service provider agreements are maintained
        by the Department of Public Works and Safety. However, we were unable to obtain
        certain original WtW service provider agreements awarded during our audit period.

        The procuring of service providers should be performed through an independent unit,
        similar to the City procedures for procuring goods totaling $75,000 or more. We
        recognize that the evaluation of proposals for potential WtW service providers requires the
        analysis of the CGFP officials. However, an independent unit should be involved with
        request for proposal development, receipt of proposals, evaluation, award, and custody of
        official procurement documentation and original service provider agreements/modifications.




DOL-OIG Report No. 05-02-001-03-386                                                     15
City of Gary Welfare-to-Work Competitive Grant




        We conclude that a material internal control weakness exists due to the lack of segregation
        of duties for procuring WtW service providers without any review or oversight of the
        process from an independent unit.

        City of Gary officials disagreed with our determination that the City of Gary’s contract
        administration system lacks the necessary segregation of duties. They stated that the
        CGFP officials follow policies mandated in the City of Gary=s Policies and Procedures.
        They outlined their procurement process, including responsibilities of the CGFP, Law
        Department, Finance Department, and Board of Public Works and Safety, and stated that
        the establishment of an additional independent unit would not be economically feasible.
        Further, the officials responded only the Board of Public Works and Safety maintains
        possession of the original service provider agreements.
        While we agree that other City entities are involved in the execution of the service provider
        agreements, we disagree that these entities are involved in the procurement of the service
        providers. The CGFP officials complete the procurement process for service providers
        and are also the custodian of the official procurement documentation, in addition to
        administering the WtW program. This is a material internal control weakness until the City
        has implemented a separation of duties in the procurement of federally-funded services.

        Our recommendation does not require an additional independent unit to administer the
        procurement process. We believe that the City could use the Purchasing Division to
        oversee the procurement of services and appoint individuals, independent of CGFP, to
        evaluate the proposals under the direction of the Purchasing Division. The Purchasing
        Division should be involved with the request for proposal development, receipt of
        proposals, evaluation, award, and custody of official procurement documentation and
        original service provider agreements/modifications. This is only one suggested option.

        Inadequate Service Provider Agreements

        The WtW service provider agreements do not detail:

            o what services are included in billable rates;
            o the frequency for submitting claims; and
            o what source documentation that service providers are to provide with itemized
              claims or maintain onsite.




DOL-OIG Report No. 05-02-001-03-386                                                       16
City of Gary Welfare-to-Work Competitive Grant




        When WtW service provider claims were compared to the fixed unit prices within the
        agreements, we found that the billed services in several claims did not match the
        agreement=s fixed unit price services. For example, one WtW service provider billed
        counseling intake services at $500 per client. The service provider agreement was silent
        concerning intake services. However, we determined that the billed services were
        allowable after reviewing source documentation at this service provider. We believe that
        incorporating a scope of work, or the entity=s proposal, into the service provider
        agreement would provide a more complete explanation of services, as well as performance
        requirements.

        Some agreements did not address the frequency for submitting claims to the CGFP. As a
        result, approximately $40,000 of the East Chicago WtW program coordinator=s salary and
        fringe benefits incurred from April 1, 2000 through March 31, 2001, were excluded from
        the reported QFSR expenditures, as of March 31, 2001. We believe that, had the
        agreement addressed the frequency for submitting claims, East Chicago would have
        submitted claims promptly.

        Service providers did not consistently submit source documentation with their claims nor
        always maintain source documentation onsite. Again, the WtW agreements did not always
        address the custody or submission of source documentation in support of billed services.
        For example, we reviewed the CGFP=s service provider agreement with GPTC. This
        agreement provided for WtW participant transportation services. While auditing GPTC
        claims at the City of Gary, we discovered that source documentation for specific WtW
        participant transportation and administrative costs was not consistently included with
        claims. GPTC=s documentation in support of these claims was either insufficient or not
        available.

        29 CFR 97.36(b)(2) states:

                Grantees . . . will maintain a contract administration system which
                ensures that contractors perform in accordance with the terms,
                conditions, and specifications of their contracts . . .

        City of Gary officials concurred that the content of service provider agreements is lacking.
        They provided copies of agreements that were modified to include details of billable rates,
        frequency for submitting claims, and required source documentation.



DOL-OIG Report No. 05-02-001-03-386                                                       17
City of Gary Welfare-to-Work Competitive Grant




        We reviewed the modified service provider agreements. While we found evidence for the
        frequency for submitting claims and requiring source documentation, details of billable rates
        were still not always defined in the modified agreements. For example, the CGFP-NGI
        modified agreement still does not define Medical Career Assessments, Life Skills, and Job
        Coaching.




DOL-OIG Report No. 05-02-001-03-386                                                       18
City of Gary Welfare-to-Work Competitive Grant




Overall Summary

In summary, we question a total of $130,205, as follows:


                                                                      Questioned
                   Reason Questioned             Part      Page
                                                                        Costs

              Multiple or Excessive Claims        A         5     $         50,958

              Unsupported Claims                  B         8               72,268

              Unsupported OJT Instruction         C         12                4,260

              Unallowable Placement Costs         D         13                1,072

              Provider Services Not Included
              Within Service Provider             E         14                1,647
              Agreements

                                                        TOTAL     $        130,205



Recommendation

We recommend that the Assistant Secretary for Employment and Training:

    •   recover questioned costs of $130,205; and
    •   direct the City of Gary to improve the contract administration system for procuring WtW
        participant services by:
            o procuring service providers through an independent City unit, similar to the City
                 procedures for procuring goods totaling $75,000 or more;
            o requiring official procurement documentation and original service provider
                 agreements/modifications be maintained by this independent City unit; and
            o ensuring that service provider agreements detail what services are included in
                 billable rates.




DOL-OIG Report No. 05-02-001-03-386                                                    19
City of Gary Welfare-to-Work Competitive Grant




                                   2. Other Unallowable Claims

                                   The City of Gary claimed $3,749 resulting from (A) claims not
      Other unallowable
                                   offset by refunds, and (B) a fringe benefits rate not properly
    expenditures resulted in
                                   supported.
  questioned costs of $3,749


A.      Service Provider Claims Not Offset By Refunds

Two service providers reimbursed the CGFP for previously billed WtW participant services. One
service provider, Staff Source, submitted a $1,350 refund to the CGFP in August 2000 for
claimed OJT services. Another service provider, NGI, submitted a $536 refund to the CGFP in
January 2000 for a placement determined to be invalid. We determined that both refunds were
promptly deposited into the City of Gary bank account established for WtW. However, claimed
QFSR expenditures, as of March 31, 2001, were not reduced by the respective amount of these
refunds.

29 CFR 97.22(a) states:

        Limitation on use of funds. Grant funds may be used only for:
        (1)     The allowable costs of the . . . subgrantees . . . including . . .
                payments to fixed-price contractors. . . .

After the service providers provided the reimbursements, the previously booked expenditures no
longer met the definition of allowable cost. It appears the expenditures were not appropriately
reduced due to management oversight. Consequently, we questioned $1,886.

City of Gary officials concurred with this finding. They indicated refunds have been posted to
offset expenditures and the next QFSR will reflect the changes.

B.      Claimed Fringe Benefits Rate Not Supported

The City of Gary partnered with several regional cities for the delivery of WtW services. Four
program coordinators directly administered WtW services to eligible participants in Gary,
Hammond, East Chicago, and Lake Station/Hobart. In East Chicago, the WtW program
coordinator was an East Chicago employee. East Chicago was reimbursed for the WtW program



DOL-OIG Report No. 05-02-001-03-386                                                      21
City of Gary Welfare-to-Work Competitive Grant




coordinator=s salary and fringe benefits by the CGFP through a contractual agreement. However,
East Chicago was unable to support the fringe benefits rate billed to the CGFP for two
reimbursement claims covering the period June 21, 1999 through
March 31, 2000. East Chicago billed a fringe benefits rate of 18.65 percent. East Chicago
provided documentation to support an 11.9 percent rate. We determined the questioned cost as
follows:

                          Claimed
       Claim Period       Salary                                 Unsupported         Questioned
                                                                    Rate               Cost
    June 21 through
    December 31, 1999     $   18,846   Claimed       Fringe
                                                                 (Billed Rate     (Claimed Salary
                                        Fringe       Benefits
                                                                     Less               X
    January 1 through                  Benefits       Rate
                                                                Audited Rate)    Unsupported Rate)
    March 31, 2000             8,750     Rate       Per Audit

                          $   27,596        .1865       .1190            .0675   $           1,863


East Chicago officials claimed their fringe benefits rate as a result of being informed by CGFP
officials to use the City of Gary=s fringe benefits rate established in WtW Competitive Grant.

29 CFR 97.20(b) states:

        The financial management system of . . . subgrantees must meet the following standards. . .
        .
        (6) Accounting records must be supported by . . . source documentation. . . .

Further, the East Chicago WtW program coordinator=s salary and fringe benefits incurred for the
period, April 1, 2000 through March 31, 2001, were excluded from the reported QFSR
expenditures as of March 31, 2001. The CGFP must ensure that East Chicago claims covering
this period and any future periods are properly adjusted.

City of Gary officials generally agreed with our finding. However, the officials indicated the actual
fringe benefits rate is 12.9 percent and includes the following fringes: FICA, Pension,
Unemployment Insurance, and Worker=s Compensation. The officials also provided an East
Chicago invoice, dated June 26, 2001, that was reduced by $3,646 for all previously claimed
excess fringe benefits covering the period June 1999 through
March 2001.



DOL-OIG Report No. 05-02-001-03-386                                                        22
City of Gary Welfare-to-Work Competitive Grant




We reviewed the $3,646 fringes overpayment adjustment applied to the June 26, 2001
East Chicago invoice and accept this adjustment as well as the claimed 12.9 percent fringe benefits
rate.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training:

a. verify that the City of Gary has reduced future QFSR expenditures by $3,749 resulting from
   (1) properly posting the refunds to offset expenditures and (2) in accordance with the adjusted
   June 26, 2001 East Chicago invoice, or recover $3,749; and

b. direct the CGFP to ensure that future fringe benefits claims are billed at the proper rate.




DOL-OIG Report No. 05-02-001-03-386                                                        23
City of Gary Welfare-to-Work Competitive Grant




                     3. Inadequate Participant Eligibility and Documentation

The CGFP reported 235 participants served on the March 31, 2001 QFSR (200 as 70 percent
and 35 as 30 percent). The CGFP=s MIS listed 248 participants that applied for the WtW
program through March 31, 2001. Initial eligibility testing revealed that some did not meet the
ETA definition of Aparticipant served.@ The CGFP officials subsequently confirmed that 47 of the
reported 248 did not meet ETA=s definition. Therefore, the universe of participants upon which we
selected a sample was 201 (248 less 47). We then judgmentally selected a sample of 60 from this
201 adjusted universe of participants served. Because the CGFP staff did not include an eligibility
determination date in the MIS, the sample was divided into two groups based upon our review of
the participant file and our determination as to when the participant enrolled into the WtW
program. We determined that 19 of the sampled participants enrolled before January 1, 2000, and
the remaining 41 enrolled from
January 1, 2000 through March 31, 2001. This was necessary because of a change in participant
eligibility requirements effective January 1, 2000. The eligibility testing revealed seven ineligible
participants and two misclassified participants.

A.        Ineligible Participants

                                Of the 60 participants in our sample, 7 were determined ineligible.
     7 ineligible participants  We identified six ineligible participants who the CGFP believed
     resulted in questioned     were on TANF and thus enrolled in the program. Our audit
         cost of $2,808         determined they were not receiving TANF at the time of enrollment
                                and, therefore, were not eligible. Moreover, they did not meet the
requirements within the other non-TANF WtW eligibility categories. One additional participant
was enrolled as an eligible non-custodial parent. However, the participant=s file lacked the
necessary documentation for this eligibility category and was, therefore, determined ineligible.

          $       Two participants were enrolled before January 1, 2000 and classified as long-
                  term welfare dependence (30%). 20 CFR 645.213(a)(1) requires these
                  participants to meet the following requirement: “The individual is receiving TANF
                  assistance. . . .”

          $       Two participants were enrolled after January 1, 2000 and classified as primary
                  eligibility (70%). 20 CFR 645.212(a)(1) requires these participants to meet the
                  following requirement: “(S)he is currently receiving TANF assistance. . . .”



DOL-OIG Report No. 05-02-001-03-386                                                       24
City of Gary Welfare-to-Work Competitive Grant




        C       One participant was enrolled after January 1, 2000 and classified as primary non-
                custodial eligibility (70%). 20 CFR 645.212(c) provides for several
                documentation requirements including current employment status, TANF
                assistance for minor child, and a personal responsibility contract.

        C       Two participants were enrolled after January 1, 2000 and classified as other
                eligibles (30%). 20 CFR 645.213(a) requires these participants to meet the
                following requirement: “Is currently receiving TANF assistance. . . .”

We believe that the ineligible participants were served by the CGFP because they did not have an
adequate system to determine whether the participants or minor children were receiving
TANF/AFDC benefits at the eligibility determination date. As a result of visiting FSSA and
obtaining TANF/AFDC information for participant files that lacked such information, we were able
to verify the eligibility of other sampled participants. However, since none of the seven remaining
participants had been receiving TANF at the time of their WtW enrollment or had the necessary
non-custodial parent documentation in the participant file, we determined they were ineligible. As a
result, we are questioning $2,808 of direct participant services paid on behalf of these ineligible
participants.

City of Gary officials generally concurred with the finding with the exception of two ineligible
participants having drug screens included in CGFP=s eligibility determination.

We determined all seven participants were ineligible for the program because, at the time of WtW
enrollment, six were not receiving TANF, and the other participant=s file lacked the necessary
documentation to meet the non-custodial parent eligibility category. Providing drug screens to
potential participants is irrelevant for eligibility determination. The need for substance abuse
treatment is one of several barriers to employment and/or characteristics of long-term welfare
dependence, and only a part of the overall eligibility requirement(s).

B.      Misclassified Participants

                                Our eligibility testing also disclosed two participants who were not
  70 percent classification
                                properly classified. One participant was classified as hard-to-
 statistics and expenditures
                                employ (70%) enrolled before January 1, 2000, and one
          overstated
                                participant was classified as primary eligibility (70%) and enrolled
                                after January 1, 2000. The misclassified hard-to-employ had a



DOL-OIG Report No. 05-02-001-03-386                                                         25
City of Gary Welfare-to-Work Competitive Grant




high school diploma, did not require substance abuse treatment, and had not received
TANF/AFDC for 30 or more months at WtW enrollment. The misclassified primary eligibility
participant also had not received TANF/AFDC for 30 or more months at WtW enrollment.
However, both participants met the respective 30 percent criteria and should have been classified
accordingly.

The misclassifications overstated CGFP’s statistics in the 70 percent category of participants
served, while understating the results in the 30 percent category. The improper classification of
participants also affects the proper reporting of the respective QFSR detail line item expenditures.
However, these QFSR line items could not be reconciled to the general ledger as explained in
Finding Number 4A. We believe the misclassification occurred due to management oversight.
Misclassified costs were determined as direct services paid on behalf of these participants, or
$6,852.

City of Gary officials concurred.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

    a. recover $2,808 for seven ineligible participants;

    b. direct the CGFP to transfer $6,852 from the 70 percent category to the 30 percent
       category expenditure accounts for the two misclassified participants; and

    c. direct the CGFP to correct the QFSR and the MIS to reflect seven ineligible participants
       and the proper classification for two misclassified participants.




DOL-OIG Report No. 05-02-001-03-386                                                       26
City of Gary Welfare-to-Work Competitive Grant




                               4. Noncompliance With Grant Requirements

The City of Gary did not always comply with the grant’s major requirements. We determined that
many QFSR detail line items could not be reconciled to the City’s accounting system or the MIS
and profit was not negotiated as a separate element of cost during the procurement of WtW
service providers.

A.      QFSR Detail Line Items Not Supported

                                While we were able to reconcile total WtW expenditures on the
 QFSR detail line items do      March 31, 2001 QFSR to the financial records, individual
  not reconcile to general      categories of expenditures could not be reconciled. These included
       ledger or MIS            70 percent and 30 percent expenditures, administrative
                                expenditures, and the program activity expenditure categories. A
similar condition was noted in our postaward survey of the City of Gary and included in our report
on the second round WtW competitive grants in September 1999.

In addition, the reporting of participants served was incorrect. The CGFP reported 235
participants served on the March 31, 2001 QFSR (200 as 70 percent and 35 as 30 percent). The
CGFP=s MIS listed 248 participants that applied for the WtW program through
March 31, 2001. Initial testing revealed that some of these did not meet the ETA definition of
Aparticipant served.@ The CGFP officials subsequently confirmed that 47 of the reported 248 did
not meet ETA=s definition. Of the remaining 201 (248 less 47) “participants served,” 147 were
designated as 70 percent, 25 were designated as 30 percent, and 29 were undesignated.

        Expenditures

        The City of Gary accounting system never incorporated the QFSR expenditure reporting
        requirements and did not maintain an audit trail from reported line items to source
        documentation. The CGFP staff could not document which expenditures in the general
        ledger were associated with 70 percent and 30 percent expenditures, administrative
        expenditures, and the program activity expenditure categories. As a result, it was not
        possible to reconcile QFSR detail line item expenditures to the financial records, except in
        total.




DOL-OIG Report No. 05-02-001-03-386                                                       27
City of Gary Welfare-to-Work Competitive Grant




        Furthermore, the CGFP staff did not use time sheets which allocated their time spent
        serving 30 percent and 70 percent participant categories or completing administrative vs.
        program activity duties, thus making accuracy impossible for allocating actual costs. In
        March 2001, the CGFP staff began utilizing a time sheet to track hours worked in support
        of these categories. Consequently, the CGFP may have to estimate staff time incurred to
        serve 70 percent and 30 percent participant categories and administrative versus program
        activity duties from grant inception through February 2001.

        Participants Served

        The CGFP staff could not provide the audit trail of participants reported in the MIS, or
        other source documentation. The CGFP only recently, in March 2001, implemented an
        automated centralized MIS. Prior to this date, each of four CGFP Program Coordinators
        maintained and updated their own participant tracking system and provided the data to the
        central CGFP office. Inaccurate programmatic reporting affects the CGFP=s ability to
        accurately track QFSR line item category costs in accordance with their cost allocation
        plan. In addition, inaccurate reporting affects ETA=s ability to properly exercise its
        stewardship responsibility over the WtW program.

        The breakdown of expenditures and participant data is important because of limitations on
        costs.

        20 CFR 645.211 states:

                . . . may spend not more than 30 percent of the WtW funds allotted to
                or awarded to the operating entity to assist individuals who meet the
                Aother eligibles@ eligibility requirements . . . The remaining funds
                allotted to or awarded to the operating entity are to be spent to benefit individuals
                who meet the Ageneral eligibility@ and/or Anoncustodial
                parents@ eligibility requirements . . .

        20 CFR 645.235(a)(2) states:

                . . . The limitation on expenditures for administrative purposes
                under WtW competitive grants will be specified in the grant agreement




DOL-OIG Report No. 05-02-001-03-386                                                        28
City of Gary Welfare-to-Work Competitive Grant




                 but in no case shall the limitation be more than fifteen percent (15%)
                 of the grant award.

         20 CFR 645.240(d) Participant reports, states:

                 Each grant recipient must submit participant reports to the
                 Department. Participant data must be aggregate data, and, for most
                 data elements, must be cumulative. . . .

City of Gary officials concurred.

B.       Profit Not Negotiated as a Separate Element

Our review of the service provider agreement=s section, entitled Cost of Services, resulted in our
determination that profit is not negotiated as a separate element.

29 CFR 97.36(f)(2) states:

         Grantees . . . will negotiate profit as a separate element of the price for each
         contract in which there is no price competition and in all cases where cost
         analysis is performed. . . .

This procurement requirement was not included in the CGFP or City of Gary procurement policies
and procedures even though several service providers were Afor profit@ entities.

City of Gary officials agreed.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct the City of Gary
and/or the CGFP to comply with grant requirements by:

     a. maintaining a MIS to accurately track participants served in the WtW program by
        identifying and documenting all served participants= 70 percent or 30 percent eligibility
        classifications, including TANF data, prior to referral to service providers, to ensure
        proper QFSR reporting;



DOL-OIG Report No. 05-02-001-03-386                                                         29
City of Gary Welfare-to-Work Competitive Grant




    b. correcting the QFSR and the MIS to reflect the proper classification of all undesignated
       participants; and
    c. completing a system to ensure that the CGFP and all service providers identify
       70 percent and 30 percent expenditures, administrative expenditures, and program activity
       expenditure categories. Once a system is in place, the CGFP needs to recalculate the
       expenditures charged to each individual line on the QFSR from the inception of the
       competitive grant; and
    d. negotiating profit as a separate element of cost during the procurement of WtW service
       providers.




DOL-OIG Report No. 05-02-001-03-386                                                   30
City of Gary Welfare-to-Work Competitive Grant




                                                                          Appendix A




                                    CITY OF GARY

                                    Response to Draft Report




                Crosswalk from City of Gary Response to Report Findings
             Finding Number in                           Finding Number
           City of Gary Response                            in Report
                 1A and 1B                                      1F
                     1C                                         4B
                      2                               1A, 1B, 1C, 1D, and 1E
                      3                                        2A
                      4                                         2B
                 5A and 5B                                  3A and 3B
                      6                                        4A




DOL-OIG Report No. 05-02-001-03-386                                            31
City of Gary Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-001-03-386              32
City of Gary Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-001-03-386              33
City of Gary Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-001-03-386              34
City of Gary Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-001-03-386              35
